                                                              O FFICE OF A UDIT S ERVICES , R EGION IV
                                                               61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                                A TLANTA , GA 30303
June 29, 2012

Report Number: A-04-11-04018

Mr. Walter J. Johnson
President and COO
Palmetto GBA
2300 Springdale Drive
P.O. Box 7004, Mail code: AG‐A03
Camden, SC 29020‐1728

Dear Mr. Johnson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Palmetto GBA’s Railroad Retirement Board Final
Administrative Cost Proposals for Fiscal Years 2007 and 2008. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765 extension 24 or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-11-04018 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Walter J. Johnson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




AUDIT OF PALMETTO GBA’S RAILROAD
    RETIREMENT BOARD FINAL
ADMINISTRATIVE COST PROPOSALS FOR
   FISCAL YEARS 2007 AND 2008




                         Daniel R. Levinson
                          Inspector General

                             June 2012
                           A-04-11-04018
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

Palmetto GBA Contract

Palmetto GBA (Palmetto) is a single-member, limited liability company owned by BlueCross
BlueShield of South Carolina (BlueCross). During our audit period (FYs 2007 through 2008),
CMS contracted with Palmetto to serve as the Medicare Part B carrier for the Railroad
Retirement Board (RRB) nationwide. The RRB is an independent Federal agency that
administers comprehensive retirement-survivor and unemployment-sickness benefit programs
for railroad workers and their families under the Railroad Retirement and Railroad
Unemployment Insurance Acts.

The Medicare contract between Palmetto and CMS set forth principles of reimbursement for
administrative costs. The contract cited part 31 of the Federal Acquisition Regulation (FAR)
(48 CFR chapter 1) as the guiding regulatory principles for the Medicare contract, and provided
additional guidelines for specific cost areas.

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto claimed on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

SUMMARY OF FINDINGS

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $28,223,656 in costs that we reviewed, $28,000,381 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $223,275 in its cost proposals that was not allowable including:

   •   $178,305 of costs that exceeded its general ledger costs,
   •   $32,272 of unallowable costs, and

                                                i
   •   $12,698 of home office costs that exceeded the allocable amount.

Palmetto claimed these unallowable costs because it lacked sufficient internal controls to ensure
that it included all allowable general ledger accounts in its cost proposals and to ensure that it did
not claim expenses identified as unallowable. In addition, Palmetto claimed unallowable costs
because BlueCross allocated home office costs to Palmetto that exceeded the amount allocable to
Palmetto’s Medicare RRB contract.

RECOMMENDATIONS

We recommend that Palmetto:

   •   reduce the costs claimed on its cost proposals by $223,275;

   •   improve its internal controls to ensure that it includes all allowable general ledger
       accounts, including those with negative balances, when compiling its costs for cost
       proposals;

   •   improve its internal controls to ensure that it does not claim expenses it has identified as
       unallowable; and

   •   have BlueCross implement a year-end true-up process to correct inherent rounding
       differences in its home office costs allocation process.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with all but one of our findings and
recommendations. Palmetto disagreed with our finding that home office indirect costs allocated
to the Medicare RRB contract exceeded the allocable amount by $12,698. Palmetto stated that
rounding is inherent due to the large amounts of money allocated by BlueCross. However, to
eliminate similar findings in the future, Palmetto said that BlueCross has implemented a year-end
true-up process to correct the inherent rounding differences as recommended. Palmetto’s
comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to maintain that Palmetto should reduce the costs claimed on its cost proposals by
$223,275. With regard to home office indirect costs, we are pleased with Palmetto’s statement
that BlueCross has implemented a year-end true-up process.




                                                  ii
                                                  TABLE OF CONTENTS
                                                                                                                                        Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicare Program ....................................................................................................1
              Palmetto GBA Contract ...........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

          COSTS IN EXCESS OF GENERAL LEDGER COSTS ....................................................4

          UNALLOWABLE COSTS CLAIMED ..............................................................................4

          EXCESSIVE HOME OFFICE COSTS CLAIMED ............................................................4

          RECOMMENDATIONS .....................................................................................................5

          PALMETTO GBA COMMENTS .......................................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................5


APPENDIXES


          A: FINAL ADMINISTRATIVE COST PROPOSALS WITH RECOMMENDED
             COSTS FOR ACCEPTANCE AND RECOMMENDED COSTS FOR
             DISALLOWANCE FOR FISCAL YEARS 2007 AND 2008

          B: PALMETTO GBA COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

Palmetto GBA Contract

Palmetto GBA (Palmetto) is a single-member, limited liability company owned by BlueCross
BlueShield of South Carolina (BlueCross). During our audit period (FYs 2007 through 2008),
CMS contracted with Palmetto to serve as the Medicare Part B carrier for the Railroad
Retirement Board (RRB) nationwide. The RRB is an independent Federal agency that
administers comprehensive retirement-survivor and unemployment-sickness benefit programs for
railroad workers and their families under the Railroad Retirement and Railroad Unemployment
Insurance Acts.

The Medicare contract between Palmetto and CMS set forth principles of reimbursement for
administrative costs. The contract cited part 31 of the Federal Acquisition Regulation (FAR) (48
CFR chapter 1) as the guiding regulatory principles for the Medicare contract, and provided
additional guidelines for specific cost areas.

The costs that Palmetto claimed for reimbursement included direct costs of administering the
contract, as well as home office 1 costs that BlueCross allocated to Palmetto. 2




1
 A “home office” is an office responsible for directing or managing two or more, but not necessarily all, segments of
an organization. It typically establishes policy for, and provides guidance to, the segments in their operations (48
CFR § 9904.403-30(a)(2)).
2
 BlueCross accumulated the home office costs in different pools and allocated them to its lines of business or to
other pools based on a variety of methods. The number of lines of business or other pools to which a cost pool was
allocated varied depending on the allocation methodology.

                                                         1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto claimed on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

Scope

Our audit covered the period October 1, 2006, through September 30, 2008 (FYs 2007 through
2008). For this period, Palmetto claimed administrative costs to CMS totaling $29,368,940. This
total included pension costs of $1,145,284 that will be the subject of a separate audit, so we
excluded them from this audit. We therefore reviewed $28,223,656 of administrative costs.

We limited our internal control review to those controls related to the recording and reporting of
costs on the cost proposals. We accomplished our objective through substantive testing.

We conducted fieldwork at Palmetto’s office in Columbia, South Carolina, from August through
November 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
        § 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section 190.3,
        and Palmetto’s contract with CMS;

   •    interviewed officials at Palmetto and BlueCross about their cost accumulation processes
        for cost proposals and gained an understanding of its cost allocation systems;

   •    reconciled the cost proposals for FY 2007 and 2008 to Palmetto’s accounting records;

   •    created a sampling frame of 9,162 employee pay periods totaling $10,697,424 that
        included cost centers with total costs of $100,000 or more and salaries of $10,000 or more
        for FYs 2007 through 2008;

   •    selected a judgmental sample of 60 employee pay periods (30 from each FY);

   •    verified that the amount paid was in accordance with the employee’s pay rate, the salary
        was charged to the correct cost center, and the number of hours paid agreed with the time
        sheets for the 60 employee pay periods;

   •    reviewed payroll registers, corporate bonus plans, and personnel records;


                                                 2
    •    compared top executives’ compensation to benchmark compensation amounts published
         in the Federal Register, and tested for excessive compensation claimed;

    •    created a sampling frame totaling $17,312,472 that consisted of the supporting general
         ledger account totals for the cost proposals’ cost classification lines, other than
         salaries/wages and fringe benefits, that exceeded $500,000 for FYs 2007 through 2008;

    •    selected a judgmental sample of 60 nonsalary transactions (30 from each FY);

    •    tested the selected nonsalary transactions for allowability, allocability, and
         reasonableness;

    •    reviewed the allocation methodology for the home office indirect cost pools 3 that
         allocated more than $3 million per year to Palmetto; and

    •    recalculated the home office cost allocations for the cost pools reviewed using the
         allocation statistical bases provided by BlueCross and determined the excess allocated to
         Palmetto and, more specifically, the portion that was allocated to the Medicare RRB
         contract.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Palmetto claimed administrative costs that substantially complied with the FAR and the Medicare
contract. Of the $28,223,656 in costs that we reviewed, $28,000,381 was allowable, allocable,
and reasonable in accordance with part 31 of the FAR and the Medicare contract. However,
Palmetto claimed $223,275 in its cost proposals that was not allowable including:

    •    $178,305 of costs that exceeded its general ledger costs,
    •    $32,272 of unallowable costs, and
    •    $12,698 of home office costs that exceeded the allocable amount.

Palmetto claimed these unallowable costs because it lacked sufficient internal controls to ensure
that it included all allowable general ledger accounts in its cost proposals and to ensure that it did
not claim expenses identified as unallowable. In addition, Palmetto claimed unallowable costs
because BlueCross allocated home office costs to Palmetto that exceeded the amount allocable to
Palmetto’s Medicare RRB contract.


3
  Indirect cost pool means a grouping of incurred costs identified with two or more objectives but not identified
specifically with any final cost objective (48 CFR § 9904.401–30(a)(4)).

                                                          3
COSTS IN EXCESS OF GENERAL LEDGER COSTS

Pursuant to FAR § 31.201-2(d), Palmetto is responsible for “... maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles....”

On its FY 2008 cost proposal, Palmetto claimed costs that exceeded its general ledger costs by
$178,305. Palmetto did not include all allowable general ledger accounts on its cost proposal.
Because the excluded general ledger accounts together had a negative balance, Palmetto
overstated its costs by $178,305.

This overstatement occurred because Palmetto implemented a new accounting system in 2008 for
which it did not have sufficient internal controls to ensure that it included all allowable general
ledger accounts, including those with negative balances, when compiling its costs for cost
proposals.

UNALLOWABLE COSTS CLAIMED

Pursuant to FAR § 31.204(a), costs are allowable to the extent they are reasonable [and]
allocable…. Additionally, FAR § 31.205 provides a compilation of costs that are unallowable
and places limits on the amounts of certain other costs that are otherwise allowable. Palmetto’s
Medicare contract further restricts the types and amounts of costs that are allowable.

Palmetto properly identified costs in an indirect cost pool as unallowable according to FAR
§ 31.205 and its Medicare contract. However, Palmetto incorrectly allocated to the Medicare
RRB contract a portion of these costs that it had identified as unallowable and claimed these costs
on its FY 2007 cost proposal. The total unallowable costs claimed from the indirect cost pool on
the FY 2007 cost proposal was $32,272.

Palmetto incorrectly claimed these costs because it did not have adequate internal controls in
place to prevent it from including costs in its cost proposal that it had identified as unallowable.

EXCESSIVE HOME OFFICE COSTS CLAIMED

Pursuant to FAR § 31.201-2(d), Palmetto is responsible for “... maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles....” Furthermore, FAR
§ 31.203(d) states that “once an appropriate basis for allocating indirect costs has been accepted,
the contractor shall not fragment the base by removing individual elements.” 4

The total home office indirect costs that BlueCross allocated to Palmetto exceeded the allocable
amount by $205,419 for our audit period. Of the $205,419, $12,698 was allocated to Palmetto’s
Medicare RRB contract and claimed by Palmetto on the cost proposal. However, contrary to
FAR § 31.201-2(d), Palmetto could not support that these expenses were allocable to the
Medicare RRB contract.
4
    In BlueCross’ case, the elements included the lines of business or other cost pools.

                                                             4
Palmetto claimed excessive home office indirect costs because BlueCross allocated indirect costs
to Palmetto in excess of the allocable amount. BlueCross did not adhere to FAR § 31.203(d)
when, at various points in the allocation process, it dropped allocations to certain elements
because it allocated by account, by cost center, rather than in the aggregate. Palmetto officials
explained that BlueCross’ allocation methodology is necessary to preserve transaction level
information, and that some rounding is inherent.

RECOMMENDATIONS

We recommend that Palmetto:

   •   reduce the costs claimed on its cost proposals by $223,275;

   •   improve its internal controls to ensure that it includes all allowable general ledger
       accounts, including those with negative balances, when compiling its costs for cost
       proposals;

   •   improve its internal controls to ensure that it does not claim expenses it has identified as
       unallowable; and

   •   have BlueCross implement a year-end true-up process to correct inherent rounding
       differences in its home office costs allocation process.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with all but one of our findings and
recommendations. Palmetto disagreed with our finding that home office indirect costs allocated
to the Medicare RRB contract exceeded the allocable amount by $12,698. Palmetto stated that
rounding is inherent due to the large amounts of money allocated by BlueCross. However, to
eliminate similar findings in the future, Palmetto said that BlueCross has implemented a year-end
true-up process to correct the inherent rounding differences as recommended. Palmetto’s
comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to maintain that Palmetto should reduce the costs claimed on its cost proposals by
$223,275. With regard to home office indirect costs, we are pleased with Palmetto’s statement
that BlueCross has implemented a year-end true-up process.




                                                 5
APPENDIXES
       APPENDIX A: FINAL ADMINISTRATIVE COST PROPOSALS WITH
             RECOMMENDED COSTS FOR ACCEPTANCE AND
              RECOMMENDED COSTS FOR DISALLOWANCE
                    FOR FISCAL YEARS 2007 AND 2008

                                             Fiscal Year    Fiscal Year
               Cost Category                    2007            2008        Total
Salaries and Wages                            $6,745,158      $3,676,067   $10,421,225
Fringe Benefits                                3,415,572       1,250,927      4,666,499
Facilities or Occupancy                        1,105,784               0      1,105,784
EDP Equipment                                    809,592          31,939        841,531
Subcontracts                                     112,345         915,342      1,027,687
Outside Professional Services                       8,046        221,315        229,361
Telephone and Telegraph                          244,566           2,557        247,123
Postage and Express                            2,580,930       1,669,174      4,250,104
Furniture and Equipment                          164,317               0        164,317
Materials and Supplies                           446,863          44,292        491,155
Travel                                            93,132           1,712         94,844
Return on Investment                              51,186          53,110        104,296
Miscellaneous                                    936,580               0        936,580
Other                                                   0      9,967,403      9,967,403
Credits                                      (2,686,570)     (2,492,399)    (5,178,969)
Forward Funding                                         0              0              0

                    Total Costs Claimed $14,027,501         $15,341,439    $29,368,940
        Less Pension Costs Not Reviewed     518,739             626,545      1,145,284
                   Total Costs Reviewed $13,508,762         $14,714,894    $28,223,656

      Less: Recommended Disallowances
     Costs in Excess of the General Ledger            $0      $178,305        $178,305
Unallowable Costs From Indirect Cost Pool         32,272             0          32,272
             Overstated Home Office Costs         11,953           745          12,698
     Total Recommended Disallowances             $44,225      $179,050        $223,275

           Recommended for Acceptance $13,464,537           $14,535,844    $28,000,381
                                                                                                                        Page 1 of 3


            APPENDIX B: PALMETTO GBA COMMENTS



LD Palmetto GBA.    PARTNERS IN EXCELLENCE _
                                                                                                               Walter J. Johnson
                                                                                                President and Chief Operating Officer




May 3, 2012



Lori S. Pilcher
Regional Inspector General for Audit Services
Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, Georgia 30303

Dear Ms. Pilcher:

RE: Audit Report Number A-04-11-04018

Please note effective April 2, 2012, I assumed the President and Chief Operating Officer position at
Palmetto GSA. Therefore, I am responding to your letter addressed to Bruce Hughes dated April 2, 2012
entitled "Audit of Palmetto GSA's Railroad Retirement Board Final Administrative Cost Proposal for Fiscal
Years 2007 and 2008,"

The draft report contained the following recommendations. Our responses to the recommendations are
provided below.

We recommend that Palmetto GSA:

       Reduce the cost claimed on its cost proposals by $223,275;
       Improve its internal controls to ensure that it includes all allowable general ledger accounts,
       including those with negative balances, when compiling its cost for cost proposals.
       Improve its internal controls to ensure that it does not claim expenses it has identified as
       unallowable; and
       Have BlueCross implement a year-end true up process to correct inherent rounding differences in its
       home office costs allocation process.

Contractor Response:

       Palmetto GBA agrees with the computation of unallowable cost included on the 2007 cost proposal
       in the amount of $32,272. In an effort to reduce the size and complexity of the true up journal entry,
       Palmetto GBA rolled all natural accounts into one account (6GA3) and in the process, inadvertently
       included unallowable accounts. This account roll up was an isolated occurrence and the process
       was immediately revised to maintain original account numbers and descriptions, making unallowable
       cost evident.

       Palmetto GBA agrees with a reduction in cost related to its 2008 cost proposal in the amount of
       $178,305. This allowable cost, which had credit balances, was included in the three prior cost
       proposals, but was inadvertently excluded from the final, causing an overstatement of allowable
       cost. The inclusion of this cost relied on a manual process, which has been eliminated with the
       addition of several new pools which automated the cost allocation process.



                                      www.palmettogba.com I Post Office Box 100134
                                                 ISO 9001 Columbia, South C<rolina 29202-3134
                                                                                                          Page 2 of 3





   S. Pilcher
May 3. 2012
Page 2

        Palmetto GSA agrees with the recommendation to improve our pol icies and procedures for
        maintaining documentation to support that costs included on our cost proposals were incurred,
        allocable 10 the contract, and compliant with applicable cost principles. Palmetto GSA has
        implemented multiple automated processes 10 replace Ihose Ihat we re manuallunctions. Palmetto
        GSA will take any other steps deemed necessary to implement this recommendation .

        Palmetto GSA disagrees with the disallowance 01 the Home Office cost in Ihe amount of $12.698.
        We believe this cost to be allowable, allocable and reasonable . Our Home Office allocates
        hundredS of millions of dollars and thus . some rounding is inherent. As recommended. Ihe Home
        Office has implemented a year end process to true up variances as a result of the rounding (see
        Home Office narrative below) .

                Summary
                The purpose of this efTl8il is to explain tv.o prior-year costing adjustments that will
                be made in the first quarter of 2012 to satisfy government cost accounting
                requirements and relieve outstanding audit concerns. Cost & Budget does not
                expect these adjustments to result in significant changes to allocated cost by
                business segment for 2011. A handful of large LOBs will reflect a change in
                allocated cost of $ 100k - $200k for the year, but most of the rounding
                adjustments will offset within a :segment (i.e. Private Business. PGBA. CLife.
                etc.).

                Detail
                Cost & Budget will implement a new process in 2012 to satisfy government cost
                BCCounting requirements and relieve outstanding audit concerns. The new
                process will include tv.o prior-year cost allocation adjustments during the first
                quarter of 2012. Any billings or cost reports related to government contracts will
                need to be adjusted accordingly. It is important for internal management to note
                that Cost & Budget does not expect these adjustments to result in significant
                changes in allocated cost for 2011.

                The cost allocation adjustments will take the form of journal entries and will be
                reflected in a new cost center (Cost Center OSA) which will be used exclusively
                for these prior year cost allocation adjustments. The total cost in Cost Center 05A
                will be $0.00; however amounts will be reflected. both positive and negative. per
                line of business (LOB). The first entry will be made in the January 2012 costing
                cycle. The second entry will be made during February costing. Each entry will
                be by LOB and will have the appropriate natural account detail. In addition. the
                related Home Office cost pools will be documented in the description field for use
                wiltJ government reporting. Again, these entries should not result in significant
                allocation changes.

                January Entry
                The purpose of this adjustment is to match the timing of cost and allocation
                statistics. Historically. some allocation stats used by Cost & Budget were on a
                one month lag due to the availability of current month information within the time
                allotted for the monthly costing cycle. In order to be in compliance with
                government cost accounting regulations. cost alkxations in a calendar year must
                be based statistical data from that calendar year. Allocations based on statistics
                that lag one month are not in compliance with government regulations.
                                          •............. """'·- Ic_._c
                                                  ISO""'''''''   ....  .._"'o,..,...
                                                             otnt._I .. ' ...
                                                                                                             Page 3 of 3





   S. Pilcher
May 3. 2012
Page 3

                Therefore. a January entry will be made to "true-up · 2011 cost allocations using
                pool statistics based on calendar year activity.

                February Entry
                The purpose of this adjustment is to enable Cost and Budget to appty cost
                allocations to LOBs using dollar amount increments that are not limited to two
                decimals places. BCBSSC cost allocations are applied to a minimum amount of
                $0.01 . This system process results in very small, but numerous rouncing errors
                that are detectable by government auditors in total. This issue has resulted in an
                audit fincing during a recent Part B audit. Therefore. starting with the 2011
                calendar year, Cost & Budget will run a costing model in the first quarter of the
                following year using the necessary decimal places to eliminate 1) the rounding
                error in the costing system and 2) the risk of future government audit findings. A
                handful of large LOBs will reflect a change in allocated cost of $100k • $200k for
                the year. but most of the rounding adjustments will offset each other within a
                segment (i.e. Private Business. PGBA. CLite. etc.).

                If you have any questions regarding these two adjustments, please contact
                myself or Lynda Snyder. Otherwise, Cost & Budget wiN publish the effects of the
                adjustments prior 10 entry in the costing system.


  If you have any questions, please feel free to contact me at 803·763-1176 or Joe Wright at 803-763-5545.


                                                                                      Sincerely

                                                                                      I Walter J. Johnson!



     cc:   Joe Wright, Palmetto GBA
           Mark Wimple, DIG




                                         •.............
                                                 ISO""' """·' '-.... Ic_._c
                                                                      .... otnt.-, ....'_",o,..,
                                                                                        ...      ...
